2 JL 5728
1

C3

No.

In the Supreme Court of the United States
ALBERTO SOLAR-SOMOHANO,
Petitioner
v.
UNITED STATES,
Respondent
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
PETITION FOR WRIT OF CERTIORARI
/ALBERTO SOLAR-SOMOHANO/
Petitioner
4741NW 5th Street
Miami, FI. 3326
(561) 595-8547

FILED
SEP 0 7 2921
I SUPREME^c'out-iT1^ cK

September 3rd, 2021

RECEIVED
SEP 2 1 2021

No.
In the Supreme Court of the United States
ALBERTO SOLAR-SOMOHANO
Petitioner
v.
UNITED STATES,
Respondent
On Petition for Writ of Certiorari to ike United
States Court of Appeals for the Federal Circuit
PETITION FOR WRIT OF CERTIORARI
/ALBERTO SOLAR-SOMOHANO/
Petitioner
4741 NW 5th Street
Miami, FI. 3326
(561) 595-8547

September 3rd, 2021

(i)

QUESTIONS PRESENTED
I.

Whether under Carr v. Saul the exhaustion of
administrative appeal to the Trial Trademark
Board can be bypass directly appealing to the Court
of Appeals on a Rule 5.1 appointment clause
constitutional challenge.
II.
Whether after US v. Arthrex final decision on
registration and cancellation of Patents &
Trademarks certificate be by principle officers
President appointee Senate consented appointed

(i)
QUESTIONS PRESENTED
I.
Whether under Carr u. Saul the exhaustion of
administrative appeal to the Trial Trademark
Board can be bypass directly appealing to the Court
of Appeals on a Rule 5.1 appointment clause
constitutional challenge.
II.
Whether after US v. Arthrex final decision on
registration and cancellation of Patents &
Trademarks certificate be by principle officers
President appointee Senate consented appointed

(ii)

PARTIES TO THE PROCEEDINGS BELOW
The Petitioner is the Appellant and Respondent
is the Appellee in the Federal Circuit Court of
Appeals case no. 21-1278.

(ii)

PARTIES TO THE PROCEEDINGS BELOW
The Petitioner is the Appellant and Respondent
is the Appellee in the Federal Circuit Court of
Appeals case no. 21-1278.

(in)
RELATED PROCEEDING
There is no related proceeding on the question
posed however there is a pending petition with the
same Petitioner case no. 20-8464

(m)
RELATED PROCEEDING
There is no related proceeding on the question
posed however there is a pending petition with the
same Petitioner case no. 20-8464

(iv)
TABLE OF CONTENTS
Page(s)
TABLE AUTHORITIES..................................... .v
OPINIONS BELOW........................................... 1
STATEMENT OF JURISDICTION................... 1
CONSTITUTIONAL PROVISION..................... 1
STATEMENT OF THE CASE....................... 4
I. Proceeding Below
A. Office Trademark Application
B. Ex parte Appeal
C. Court of Appeals
REASON GRANTING THE WRIT................ .7
II. Appointment Clause Challenge
D. Rule 5.1
E. Carr v. Saul, 19-1442 (April 22°d, 2021)
F. United States v. Arthrex 594 US_(2021)
III. Principle Officer
G. Director of the USPTO
10
CONCLUSION....................
Appendix
la
Denial of rehearing...............................
3a
Opinion dismissing appeal..................
5a
Certify Appointment Clause Challenge

(iv)
TABLE OF CONTENTS
Page(s)
.v
TABLE AUTHORITIES....................
1
OPINIONS BELOW...........................
1
STATEMENT OF JURISDICTION..
1
CONSTITUTIONAL PROVISION...
4
STATEMENT OF THE CASE......
I. Proceeding Below
A. Office Trademark Application
B. Ex parte Appeal
C. Court of Appeals
7
REASON GRANTING THE WRIT
II. Appointment Clause Challenge
D. Rule 5.1
E. Carr v. Saul, 19-1442 (April 22nd, 2021)
F. United States v. Arthrex 594 US_(2021)
III. Principle Officer
G. Director of the USPTO
CONCLUSION..................................................... 10
Appendix
la
Denial of rehearing.................................
3a
Opinion dismissing appeal....................
5a
Certify Appointment Clause Challenge

(V)

TABLE OF AUTHORITIES
Cases
Carr v. Saul,
6,7
19-1442 (April 22nd, 2021).............................
Ryder v. US,
4,7
515 U.S. 177 (1995).......................................
United States v. Arthrex
594 U.S.__ (2021)........................................ 6, 7, 8
CONSTITUTIONAL PROVISION
Appointment Clause
Article II, section 2........................................ 1, 5,8
STATUTORY PROVISION
United States Code
1,6
Section 1071 Title 15.....................................
FEDERAL RULES CIVIL PROCEDURAL
Constitutional Challenge
■4, 5, 7
Rule 5.1............................................
CODE FEDERAL REGULATION
Action after Responses
2, 3, 4, 7
37 CFR 2.63

(V)

TABLE OF AUTHORITIES
Cases
Carr v. Saul,
6,7
19-1442 (April 22nd, 2021)..............
Ryder v. US,
4,7
515 U.S. 177 (1995).........................
United States v. Arthrex
6, 7, 8
594 U.S.__ (2021).........................
CONSTITUTIONAL PROVISION
Appointment Clause
Article II, section 2..............
1, 5,8
STATUTORY PROVISION
United States Code
1,6
Section 1071 Title 15....................................

FEDERAL RULES CIVIL PROCEDURAL
Constitutional Challenge
Rule 5.1............................................
CODE FEDERAL REGULATION
Action after Responses
37 CFR 2.63....................................

4, 5,7
2, 3, 4, 7

1.
OPINIONS BELOW
Court of Appeal denying petition rehearing was
entered on June 6th. 2021 (App, infra, la-2a):
Opinion dismissing appeal entered on April 20th,
2021; (3a-4a); Order certifying appointment clause
constitutional challenge entered on February 2nd,
2021 (5a-6a)
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. 1254(1) and 28 U.S.C. 21011.
CONSTITUTIONAL PROVISION
Article II, Section 2, cl. 2
STATUTORY PROVISIONS INVOLVED
Section 1071 USC 15
a) Persons entitled to appeal; United States
Court of Appeals for the Federal Circuit;
WAIVER OF CIVIL ACTION; ELECTION OF CIVIL ACTION
BY ADVERSE PARTY; PROCEDURE(l) An applicant for
registration of a mark, party to an interference
proceeding, party to an opposition proceeding,
party to an application to register as a lawful
concurrent user, party to a cancellation proceeding,
a registrant who has filed an affidavit as provided
in section 1058 of this title or section 1141k of this
title, or an applicant for renewal, who is
dissatisfied with the decision of the Director or
Trademark Trial and Appeal Board, may appeal to
the United States Court of Appeals for the Federal
Circuit....,.....

1.
OPINIONS BELOW
Court of Appeal denying petition rehearing was
entered on June 6th. 2021 (App, infra, la-2a):
Opinion dismissing appeal entered on April 20th,
2021; (3a-4a); Order certifying appointment clause
constitutional challenge entered on February 2nd,
2021 (5a-6a)
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. 1254(1) and 28 U.S.C. 21011.
CONSTITUTIONAL PROVISION
Article II, Section 2, cl. 2
STATUTORY PROVISIONS INVOLVED
Section 1071 USC 15
a) Persons entitled to appeal; United States
Court of Appeals for the Federal Circuit;
waiver of civil action; election of civil action
by adverse party; procedure(I) An applicant for
registration of a mark, party to an interference
proceeding, party to an opposition proceeding,
party to an application to register as a lawful
concurrent user, party to a cancellation proceeding,
a registrant who has filed an affidavit as provided
in section 1058 of this title or section 1141k of this
title, or an applicant for renewal, who is
dissatisfied with the decision of the Director or
Trademark Trial and Appeal Board, may appeal to
the United States Court of Appeals for the Federal
Circuit...........

2.

FEDERAL RULE CIVIL PROCEDURE
Rule 5.1
FEDERAL REGULATION
37 CFR 2.63(b)(1),(2)
(b) Final refusal or requirement. Upon review of a
response, the examining attorney may state that
the refusal(s) to register, or the requirement(s), is
final.
(1) If the examining attorney issues a final action
that maintains any substantive refusal(s) to
register, the applicant may respond by timely
filing: (i) A request for reconsideration under
paragraph (b)(3) of this section that seeks to
overcome any substantive refusal(s) to register,
and comply with any outstanding requirement(s),
maintained in the final action; or (ii) An appeal to
the Trademark Trial and Appeal Board under §§
2.141 and 2.142.
(2) If the examining attorney issues a final action
that contains no substantive refusals to register,
but maintains any requirement(s), the applicant
may respond by timely filing: (i) A request for
reconsideration under paragraph (b)(3) of this
section that seeks to comply with any outstanding
requirement(s) maintained in the final action;(ii)
An appeal of the requirement(s) to the Trademark
Trial and Appeal Board under §§ 2.141 and 2.142;
or (iii) A petition to the Director under § 2.146 to
review the requirement(s), if the subject matter of
the requirement(s) is procedural, and therefore
appropriate for petition.

2.

FEDERAL RULE CIVIL PROCEDURE
Rule 5.1
FEDERAL REGULATION
37 CFR 2.63(b)(1),(2)
(b) Final refusal or requirement. Upon review of a
response, the examining attorney may state that
the refusal(s) to register, or the requirement(s), is
final,
(1) If the examining attorney issues a final action
that maintains any substantive refusal(s) to
register, the applicant may respond by timely
fifing: (i) A request for reconsideration under
paragraph (b)(3) of this section that seeks to
overcome any substantive refusal(s) to register,
and comply with any outstanding requirement(s),
maintained in the final action; or (ii) An appeal to
the Trademark Trial and Appeal Board under §§
2.141 and 2.142.
(2) If the examining attorney issues a final action
that contains no substantive refusals to register,
but maintains any requirement(s), the applicant
may respond by timely filing: (i) A request for
reconsideration under paragraph (b)(3) of this
section that seeks to comply with any outstanding
requirement(s) maintained in the final action;(ii)
An appeal of the requirement(s) to the Trademark
Trial and Appeal Board under §§ 2.141 and 2.142;
or (iii) A petition to the Director under § 2.146 to
review the requirement(s), if the subject matter of
the requirement(s) is procedural, and therefore
appropriate for petition.

3.

(3) Prior to the expiration of the time for filing an
appeal or a petition, the applicant may file a
request for reconsideration of the final action that
seeks to overcome any substantive refusal(s) and/or
comply with any outstanding requirement(s).
Filing a request for reconsideration does not stay
or extend the time for filing an appeal or petition.
The Office will enter amendments accompanying
requests for reconsideration after final action if the
amendments comply with the rules of practice in
trademark cases and the Act.
(4) Filing a request for reconsideration that does
not result in the withdrawal of all refusals and
requirements, without the filing of a timely appeal
or petition, will result in abandonment of the
application for incomplete response, pursuant to §
2.65(a).

3.
(3) Prior to the expiration of the time for filing an
appeal or a petition, the applicant may file a
request for reconsideration of the final action that
seeks to overcome any substantive refusal(s) and/or
comply with any outstanding requirement(s).
Filing a request for reconsideration does not stay
or extend the time for filing an appeal or petition.
The Office will enter amendments accompanying
requests for reconsideration after final action if the
amendments comply with the rules of practice in
trademark cases and the Act.
(4) Filing a request for reconsideration that does
not result in the withdrawal of all refusals and
requirements, without the filing of a timely appeal
or petition, will result in abandonment of the
application for incomplete response, pursuant to §
2.65(a).

4.
STATEMENT OF THE CASE
I. Proceeding Below
A. Office Trademark Application:
On August 23rd. 2017 Petitioner filed a
trademark application Serial No. 87575740. ui
On August 4th. 2020. the examining attorney
(EA) of the United States Trademark Office enter
final action letter refusing application. [21
On September 17. 2020. Petitioner filed
reconsideration of refusal requesting review by the
Director a principle officer and objecting under
Rule 5.1 declaring that ex parte appeal is
Unconstitutional Judges not principle officer
appointed by the President. 13]
l
During that time, Petitioner had earlier in other
applications in opposition proceedings made the same
challenge under Ryder v. US, 515 U.S. 177 (1995).(September
24, 2013 #91210647; June 12th, 2014 #920574; November 20, 2014
#91210103; November 22- 2014 #91211714; November 29th, 2014
#91216818/#91210103; January 9th, 2015 #91218529; March 2nd, 2016
#91224653; March 7th, 2016; #91224621; March 9*, 2016;
#91224670/#91224653; January 24th, 2017#91232090)
2
Under 15 USC 1070, Petitioner has 6-months to take an exparte appeal to the Trial Trademark Appeal Board (TTAB)
3
“Reconsideration by the Director a principle officer 1 object
that the EA entertain the Further object the ex parte appeal to
the Board is Unconstitutional the Board panel members r not
principle officer thus under Rule 5.1. I challenge the
constitutionality of the TTAB”
The reconsideration does not toll the 6-months to timely
filed an ex parte appeal to TTAB nor does a petition to the
Director under 37 CFR 2.146. The decision of the Director
cannot be appeal to the TTAB. 37 CFR 2.63(b)(l)(2)

4.
STATEMENT OF THE CASE
I. Proceeding Below
A. Office Trademark Application:
On August 23rd. 2017 Petitioner filed a
trademark application Serial No. 87575740. [i]
On August 4th. 2020. the examining attorney
(EA) of the United States Trademark Office enter
final action letter refusing application. [2]
On September 17. 2020. Petitioner filed
reconsideration of refusal requesting review by the
Director a principle officer and objecting under
Rule 5.1 declaring that ex parte appeal is
Unconstitutional Judges not principle officer
appointed by the President. [3]

l
During that time, Petitioner had earlier in other
applications in opposition proceedings made the same
challenge under Ryder v. US, 515 U.S. 177 (1995).(September
24, 2013 #91210647; June 12* 2014 #920574; November 20, 2014
#91210103; November 22- 2014 #91211714; November 29th, 2014
#91216818/#91210103; January 9th, 2015 #91218529; March 2nd, 2016
#91224653; March 7*, 2016; #91224621; March 9*, 2016;
#91224670/#91224653; January 24*, 2017#91232090)
2

Under 15 USC 1070, Petitioner has 6-months to take an exparte appeal to the Trial Trademark Appeal Board (TTAB)
3

"Reconsideration by the Director a principle officer 1 object
that the EA entertain the Further object the ex parte appeal to
the Board is Unconstitutional the Board panel members r hot
principle officer thus under Rule 5.1. I challenge the
constitutionality of the TTAB’’
The reconsideration does not toll the 6-months to timely
filed an ex parte appeal to TTAB nor does a petition to the
Director under 37 CFR 2.146. The decision of the Director
cannot be appeal to the TTAB. 37 CFR 2.63(b)(l)(2)

5.
B. Ex parte Appeal
On January 5th. 2021 Petitioner filed a notice of
appeal on the EA final refusal directly to the Court
of Appeals after Petitioner gave notices to the
Director and EA for the delay of resolving the
reconsideration.
C. Court of Appeals:
On January 26th. 2021. Petitioner filed a notice
challenging the constitution of the appointment
clause Trademark Judges not appointed by the
President
On February 2nd. 2021. the Court of Appeals
certified Petitioner’s appointment clause challenge
giving the US Attorney General 30-days to
intervene. [4]
On February 26th. 2021. notwithstanding
certifying the appointment clause challenge, the
Court of Appeals issue show cause order to parties
why appeal not dismissed for lack of jurisdiction.^]
On March 29th. 2021. Respondent filed response

4
On February 3rd. 2021. the EA denied Petitioner’s
reconsideration request pursuant to 5.1 even though not
knowing what Rule 5.1 is about. “Applicant’s response
includes an objection “under Rule 5.1” as to the
constitutionality of the Trademark Trial and Appeal Board
(TTAB) and the implementation of the U.S. Counsel Rule. It
is unclear what Applicant is referring to in citing “Rule 5.1”
5
ORDER: The parties are directed to show cause, within 30
days of the date of filing of this order, why this appeal should
not be dismissed.

5.
B. Ex parte Appeal
On January 5th. 2021 Petitioner filed a notice of
appeal on the EA final refusal directly to the Court
of Appeals after Petitioner gave notices to the
Director and EA for the delay of resolving the
reconsideration.
C. Court of Appeals:
On January 26th. 2021. Petitioner filed a notice
challenging the constitution of the appointment
clause Trademark Judges not appointed by the
President
On February 2n<j, 2021. the Court of Appeals
certified Petitioner’s appointment clause challenge
giving the US Attorney General 30-days to
intervene.^]
On February 26th. 2021. notwithstanding
certifying the appointment clause challenge, the
Court of Appeals issue show cause order to parties
why appeal not dismissed for lack of jurisdiction.[5]
On March 29th. 2021. Respondent filed response

4
On February 3rd. 2021. the EA denied Petitioner’s
reconsideration request pursuant to 5.1 even though not
knowing what Rule 5.1 is about. “Applicant’s response
includes an objection “under Rule 5.1” as to the
constitutionality of the Trademark Trial and Appeal Board
(TTAB) and the implementation of the U.S. Counsel Rule. It
is unclear what Applicant is referring to in citing “Rule 5.1”
5
ORDER: The parties are directed to show cause, within 30
days of the date of filing of this order, why this appeal should
not be dismissed.

6.
to Court of Appeals show cause.|6i
On April 12th. 2021. Petitioner response to both
show cause and Respondent response
On April 20th. 2021. the Court of Appeals
dismissed the appeal holding:
"Petitioner is impermissibly attempting to bypass
the statutory scheme and to appeal the examining
attorney decision directly to this court.”
On April 22nd. 2021. this Court decided Carr v.
Saul, 19-1442 (April 22nd, 2021)
On Mav 3rd, 2021, 2021, Petitioner filed
rehearing on account of Carr v. Saul, supra
On June 8th, 2021, tye Court of Appeals denied
rehearing. (App l(a)-2(a)
On June 21st. 2021. this Court decided United
States v. Arthrex, Inc., 594 U.S.__ (2021)

6

An applicant may not skip administrative review by the
Board under 15U.S.C. § 1070 and proceed directly in this
Court under 15 U.S.C. § 1071(a). An applicant’s failure to
exhaust the administrative remedy provided by
Congress—appealing to the Board—means that this Court
lacks appellate jurisdiction.

6.
to Court of Appeals show cause.[si
On April 12th. 2021. Petitioner response to both
show cause and Respondent response
On April 20th. 2021. the Court of Appeals
dismissed the appeal holding:
“Petitioner is impermissibly attempting to bypass
the statutory scheme and to appeal the examining
attorney decision directly to this court. ”
On April 22nd. 2021. this Court decided Carr v.
Saul, 19-1442 (April 22nd, 2021)
On May 3rd. 2021. 2021, Petitioner filed
rehearing on account of Carr v. Saul, supra
On June 8th, 2021, tye Court of Appeals denied
rehearing. (App l(a)-2(a)
On June 21st. 2021. this Court decided United
(2021)
States v. Arthrex, Inc., 594 U.S.

6

An applicant may not skip administrative review by the
Board under 15U.S.C. § 1070 and proceed directly in this
Court under 15 U.S.C. § 1071(a). An applicant’s failure to
exhaust the administrative remedy provided by
Congress—appealing to the Board—means that this Court
lacks appellate jurisdiction.

7.

REASON FOR GRANTING THE WRIT
II. Appointment Clause Challenge
D. Rule 5.1
Petitioner did it all waited and waited on the
Director a principle officer to make the final
decision of trademark application be approved for
publication, but nothing.
In fact, there is nothing at all if the Director
would have made the final decision for the decision
is only for publication which means if an opposition
is filed it will be the TTAB with the final decision
while not being principal officers.
So, final decision by not principle officers is
absurd in law and outrageous in fact.
E. Carr v. Saul, 19-1442 (April 22nd, 2021)
This Court held that constitutional challenge to
the appointment clause can be raise for the first
time on judicial review it wasn’t necessary to have
been exhaustion nor preserve under Ryder v. US,
515 U.S. 177 (1995) on administrative appeal.
This Court rationale was focused on two
considerations:
First, the Court noted that agency adjudicative
proceedings generally make a poor forum for
bringing a structural constitutional challenge,
since such a challenge usually falls outside the
adjudicator’s area of technical expertise.
Second, the Court noted that it has consistently
recognized a futility exception to exhaustion
requirements, observing that it makes little sense
to require litigants to present claims to

7.
REASON FOR GRANTING THE WRIT
II. Appointment Clause Challenge
D. Rule 5.1
Petitioner did it all waited and waited on the
Director a principle officer to make the final
decision of trademark application be approved for
publication, but nothing.
In fact, there is nothing at all if the Director
would have made the final decision for the decision
is only for publication which means if an opposition
is filed it will be the TTAB with the final decision
while not being principal officers.
So, final decision by not principle officers is
absurd in law and outrageous in fact.
E. Carr v. Saul, 19-1442 (April 22nd, 2021)
This Court held that constitutional challenge to
the appointment clause can be raise for the first
time on judicial review it wasn’t necessary to have
been exhaustion nor preserve under Ryder v. US,
515 U.S. 177 (1995) on administrative appeal.
This Court rationale was focused on two
considerations:
First., the Court noted that agency adjudicative
proceedings generally make a poor forum for
bringing a structural constitutional challenge,
since such a challenge usually falls outside the
adjudicator’s area of technical expertise.
Second, the Court noted that it has consistently
recognized a futility exception to exhaustion
requirements, observing that it makes little sense
to require litigants to present claims to

8.

adjudicators who are powerless to grant the relief
requested.
F. United States v. Arthrex 594 US_(2021)
This Court entertained an appointment clause,
not decided, raised for first time at Court of
Appeals holding that:
§6(c) cannot constitutionally be enforced to the
extent that its requirements prevent the Director
from reviewing final decisions rendered by APJs.
The Director accordingly may review final PTAB
decisions and, upon review, may issue decisions
himself on behalf of the Board. Section 6(c)
otherwise remains operative as to the other
members of the PTAB. When reviewing such a
decision by the Director, a court must decide the
case “conformably to the constitution, disregarding
the law"placing restrictions on his review authority
in violation of Article II. Marbury v. Madison, 1
Cranch 137, 178. The appropriate remedy is a
remand to the Acting Director to decide whether to
rehear the petition filed by Smith & Nephew. A
limited remand provides an adequate opportunity
for review by a principal officer. Because the source
of the constitutional violation is the restraint on the
review authority of the Director, rather than the
appointment of APJs by the Secretary, Arthrex is
not entitled to a hearing before a new panel of APJs
At the United States Patent Trademark Office the
final decision for trademark registration is not
made by a principle officer.
At the United States Patent Trademark Office
the final decision on cancellation of a trademark
registration is not made by a principle officer.
At the United States Patent Trademark Office the

8.
adjudicators who are powerless to grant the relief
requested.
F. United States v. Arthrex 594 US_(2021)
This Court entertained an appointment clause,
not decided, raised for first time at Court of
Appeals holding that:
§€(c) cannot constitutionally be enforced to the
extent that its requirements prevent the Director
from reviewing final decisions rendered by APJs.
The Director accordingly may review final PTAB
decisions and, upon review, may issue decisions
himself on behalf of the Board. Section 6(c)
otherwise remains operative as to the other
members of the PTAB. When reviewing such a
decision by the Director, a court must decide the
case “conformably to the constitution, disregarding
the law”placing restrictions on his review authority
in violation of Article II. Marbury v. Madison, 1
Cranch 137, 178. The appropriate remedy is a
remand to the Acting Director to decide whether to
rehear the petition filed by Smith & Nephew. A
limited remand provides an adequate opportunity
for review by a principal officer. Because the source
of the constitutional violation is the restraint on the
review authority of the Director, rather than the
appointment of APJs by the Secretary, Arthrex is
not entitled to a hearing before a new panel of APJs
At the United States Patent Trademark Office the
final decision for trademark registration is not
made by a principle officer.
At the United States Patent Trademark Office
the final decision on cancellation of a trademark
registration is not made by a principle officer.
At the United States Patent Trademark Office the

9.
final decision to oppose a trademark from
registration is not made by a principle officer.
III. Principle Officer
F. Director of the USPTO
The President of the United States does not
supervise the USPTO, the Director is just a puppet
the People need to know about it that this Court
got to fix it.

9.
final decision to oppose a trademark from
registration is not made by a principle officer.
III. Principle Officer
F. Director of the USPTO
The President of the United States does not
supervise the USPTO, the Director is just a puppet
the People need to know about it that this Court
got to fix it.

10.
CONCLUSION
The Court of Appeals erred by dismissing the
appeal for lack of jurisdiction while having
jurisdiction to consider the Appointment clause
constitutional challenge that final decision from
the USPTO must be render by Principle Officer.
Dated: September 3rd, 2021
/ASUS/
ALBERTO SOLAR-SOMOHANO/
Petitioner

10.
CONCLUSION
The Court of Appeals erred by dismissing the
appeal for lack of jurisdiction while having
jurisdiction to consider the Appointment clause
constitutional challenge that final decision from
the USPTO must be render by Principle Officer.
Dated: September 3rd, 2021
/ASUS/
ALBERTO SOLAR-SOMOHANO/
Petitioner

10.
CONCLUSION
The Court of Appeals erred by dismissing the
appeal for lack of jurisdiction while having
jurisdiction to consider the Appointment clause
constitutional challenge that final decision from
the USPTO must be render by Principle Officer.
Dated: September 3rd, 2021

ALBERTO SOLART-S'
[oner

